TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Planning Is Underway for the Enterprise-Wide
                Transition to Internet Protocol Version 6, but
                         Further Actions Are Needed



                                        February 27, 2014

                              Reference Number: 2014-20-016




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                               HIGHLIGHTS


PLANNING IS UNDERWAY FOR THE                       technology purchases were IPv6 capable in
ENTERPRISE-WIDE TRANSITION TO                      accordance with the Federal Acquisition
INTERNET PROTOCOL VERSION 6, BUT                   Regulation. Lastly, TIGTA found that the project
FURTHER ACTIONS ARE NEEDED                         team received inadequate oversight from the
                                                   Infrastructure Executive Steering Committee and
                                                   did not adhere to the IRS’s Enterprise Life Cycle
Highlights                                         policy. Given the geographic dispersion of the
                                                   IRS network and its size and complexity, the
                                                   enterprise-wide network conversion will have a
Final Report issued on February 27, 2014           far-reaching impact on many IRS functions.
Highlights of Reference Number: 2014-20-016        WHAT TIGTA RECOMMENDED
to the Internal Revenue Service Chief
Technology Officer.                                TIGTA recommended that the Chief Technology
                                                   Officer direct the project team to stand up an
IMPACT ON TAXPAYERS                                advisory board; develop an Information
                                                   Resources Management Strategic Plan; and
Like any new technology standard, network          coordinate with the IRS Enterprise Life Cycle
conversion to Internet Protocol version 6 (IPv6)   Office to better manage project documentation
introduces security risks if not implemented and   and schedules. TIGTA also recommended that
managed properly. When the IRS’s data and          the Chief Technology Officer coordinate with the
network are not secured, taxpayer information      IRS Procurement Office to update its policy to
becomes vulnerable to unauthorized disclosure,     align with the Federal Acquisition Regulation
which can lead to identity theft. Furthermore,     and establish a control to prevent the purchase
security breaches can cause network disruptions    of IPv6 incapable products; coordinate with IRS
and prevent the IRS from performing vital          business units to ensure that complete
taxpayer services, such as processing tax          responses to the project team’s applications
returns, issuing refunds, and answering taxpayer   data call are received so that they can begin
inquiries.                                         extensive planning for each application that will
WHY TIGTA DID THE AUDIT                            require upgrading; assess the merits of
                                                   transferring project oversight to another
The overall objective of this review was to        governance board that regularly monitors and
assess the IRS’s progress in converting its        provides oversight of information technology
network to IPv6 according to Office of             projects; and direct the Infrastructure Executive
Management and Budget requirements. This           Steering Committee to update its charter in
audit was included in TIGTA’s Fiscal Year 2013     order to properly reflect the current roles and
Annual Audit Plan and addresses the major          responsibilities of the committee.
management challenge of Security for Taxpayer
Data and Employees.                                The IRS agreed with our recommendations to
                                                   develop an Information Resources Management
WHAT TIGTA FOUND                                   Strategic Plan, better manage IPv6 project
                                                   documentation, update the Infrastructure
The IRS established an IPv6 project team to        Executive Steering Committee charter, and
manage the network conversion. The project         coordinate between offices to achieve
team has adequately planned for security risks     procurement policy alignment with Federal
during the conversion but has not completed        regulations and an exchange of information
some elements of the transition plan. For          necessary for a successful transition to IPv6.
example, the IRS has not established an IPv6       The IRS updated the IPv6 Transition Plan so
Advisory Board or prepared a resource plan to      that existing oversight groups fulfill the purpose
ensure proper guidance and coordination within     of an advisory board. Management prefers to
and outside of the agency on its IPv6 efforts.     continue with its current governance board
Also, the Procurement function did not establish   structure for this project since it provides
controls to ensure that all new information        oversight for the entire IT infrastructure portfolio.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 27, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Planning Is Underway for the Enterprise-Wide
                             Transition to Internet Protocol Version 6, but Further Actions Are
                             Needed (Audit # 201320009)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) progress in
 converting its network to Internet Protocol version 6 to comply with Office of Management and
 Budget requirements. This audit was included in the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Security for Taxpayer Data and Employees. This audit was also part of our
 statutory requirement to annually review the adequacy and security of IRS technology.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                          Planning Is Underway for the Enterprise-Wide Transition to
                         Internet Protocol Version 6, but Further Actions Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Is Addressing the Security Risks
          and Technical Limitations of Internet Protocol Version 6............................ Page 4
          Key Action Items From the 2014 Internet Protocol Version 6
          Transition Plan Need to Be Completed and Outreach Efforts
          Need to Be Improved .................................................................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 7

                    Recommendations 3 and 4: .............................................. Page 8

          The Internet Protocol Version 6 Project Did Not Receive
          Adequate Executive Oversight and Did Not Adhere to the
          Enterprise Life Cycle in 2012 ....................................................................... Page 8
                    Recommendations 5 through 7:......................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Major Differences Between IPv4 and IPv6 Headers ........... Page 15
          Appendix V – Enterprise Life Cycle Overview ............................................ Page 16
          Appendix VI – Glossary of Terms ................................................................ Page 17
          Appendix VII – Management’s Response to the Draft Report ..................... Page 20
        Planning Is Underway for the Enterprise-Wide Transition to
       Internet Protocol Version 6, but Further Actions Are Needed




                      Abbreviations

ELC            Enterprise Life Cycle
IP             Internet Protocol
IPv4           Internet Protocol version 4
IPv6           Internet Protocol version 6
IRS            Internal Revenue Service
NIST           National Institute of Standards and Technology
OMB            Office of Management and Budget
                       Planning Is Underway for the Enterprise-Wide Transition to
                      Internet Protocol Version 6, but Further Actions Are Needed




                                            Background

In August 2005, the Office of Management and Budget (OMB) mandated that Federal agencies
begin planning for the transition from Internet Protocol version 4 (IPv4) to Internet Protocol
version 6 (IPv6). IPv6 is not backward compatible with IPv4. It is a new network layer
protocol1 that provides an increased network address size of 128 bits versus 32 bits from IPv4, as
illustrated in Figure 1. In addition to extended address space, IPv6 has many new or improved
features that make it significantly different from its IPv4 predecessor, including automatic
configuration, header structure and extension headers, Internet protocol (IP) security, mobility,
quality of service, route aggregation, and efficient transmission.2
                 Figure 1: Comparison of IPv4 and IPv6 Addressing Scheme




      Source: Government Accountability Office.




1
    See Appendix VI for a glossary of terms.
2
    Appendix IV shows some major differences between IPv4 and IPv6 headers.
                                                                                           Page 1
                      Planning Is Underway for the Enterprise-Wide Transition to
                     Internet Protocol Version 6, but Further Actions Are Needed



On September 28, 2010, the Federal Chief Information Officer issued a memorandum entitled
Transition to IPv6 to all Chief Information Officers of Executive departments and agencies that
sets forth specific deadlines for the IPv6 transition within
the Federal Government. Agencies were required to
                                                               Federal agencies are required to
designate an IPv6 Transition Manager who would lead all          complete the transition to IPv6
agency IPv6 transition activities and serve as a liaison with    by the end of Fiscal Year 2014.
the wider Federal IPv6 effort. Agencies were also required
to ensure that information technology procurements are in
accordance with the Federal Acquisition Regulation regarding IPv6. The memorandum set
deadlines for two separate phases of the IPv6 transition. By the end of Fiscal Year 2012, all
agencies were instructed to upgrade public and external-facing servers and services, e.g., web,
e-mail, Domain Name System, Internet Service Provider services, etc., to operationally use IPv6.
By the end of Fiscal Year 2014, agencies must complete the transition by upgrading internal
client applications that communicate with public Internet servers and supporting enterprise
networks to operationally use IPv6. The Chief Information Officers Council issued a planning
guide3 to help agencies prepare for IPv6 deployment, and the National Institute of Standards and
Technology (NIST) also issued guidelines4 detailing the security benefits, risks of deployment,
and other IPv6 technical details.
The Internal Revenue Service (IRS) assigned an IPv6 Transition Manager from the User
Network and Services function in its Information Technology organization, and the IPv6 project
team met the 2012 deadline for external and customer-facing servers. However, the Registered
User Portal was not included in the IPv6 transition because it is undergoing an update and will
transition later this year. The Registered User Portal is the IRS external-facing portal that allows
registered individuals or their representatives and third-party users to access selected tax
processing and other sensitive IRS systems, applications, and data. Regarding the 2014 deadline,
the IRS is planning now for the transition ahead. The enterprise-wide transition to IPv6 will
constitute a significant effort for the IRS due to the agency’s size, geographic dispersion, and
diversity of hardware, systems, applications, and legacy equipment that must be reconfigured or
replaced.
The IPv6 project team informed us that they expect hardware and software upgrades and updates
necessary to facilitate the transition to be paid for through the normal technology refresh cycle,
but they have not yet made any attempt to quantify costs for these upgrades with respect to the
business units. The IPv6 project team itself does not have a dedicated budget allocated for
network or server equipment upgrades. During the time of this review, the project team was in
the process of standing up two test laboratories that will be located in Memphis, Tennessee, and


3
  Federal Chief Information Officers Council, Planning Guide/Roadmap Toward IPv6 Adoption within the
U.S. Government (Jul. 2012).
4
  National Institute of Standards and Technology, Special Publication 800-119 Guidelines for the Secure
Deployment of IPv6 (Dec. 2010).
                                                                                                          Page 2
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



Martinsburg, West Virginia. Hardware for the laboratories and IPv6 patches on existing
software is expected to cost approximately $1 million.
This review was performed with information obtained from the IRS Information Technology
organization’s User and Network Services and Cybersecurity functions located in
New Carrolton, Maryland; Memphis, Tennessee; and Dallas, Texas, as well as the Agency-Wide
Shared Services located in Oxon Hill, Maryland, during the period January through August 2013.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed




                                 Results of Review

The Internal Revenue Service Is Addressing the Security Risks and
Technical Limitations of Internet Protocol Version 6
We found that the IRS IPv6 project team successfully met the 2012 external-facing services
deadline and made progress in their planning efforts for the 2014 enterprise-wide effort.
Specifically, the IRS is adequately documenting security risks and requirements for the network
conversion to IPv6. To date, the IPv6 project team has documented more than
1,800 security requirements that they identified from NIST guidance and from more than
50 Internet Engineering Task Force Request for Comments technical documents. They also
identified security requirements in industry best practices white papers, i.e., Microsoft and Cisco,
and from other Federal agency guidance. The Cybersecurity team lead for the IPv6 project
requested an external team of IRS security engineers to audit and validate the 1,800 security
requirements and make suggested changes where appropriate. For all 1,800 security
requirements, an external team of security engineers have audited and validated the requirements
and made suggested changes where necessary.
Our analysis of NIST policies found five additional technical Request for Comments documents
that the IRS should consider. In one, the document describes a mechanism to provide a secure
binding between the multiple addresses with different prefixes available to a host within a
multihomed site. The IPv6 project team stated that they would incorporate the security
requirements from the five documents that we identified, and that they had already incorporated
changes that the external peer review team suggested. Although it is too early to determine
whether the IRS will securely deploy IPv6, we believe the IPv6 project team is aware of the
multitude of security risks, allowing them to address the security risks prior to the
enterprise-wide network conversion.
Furthermore, IPv6 project team personnel have identified technical limitations and are
developing solutions. For example, the IRS’s wide area network Internet service provider is not
IPv6 capable and will not be capable until the end of Calendar Year 2015. Therefore, for the
traffic between the major hubs across the country, the IPv6 project team has had to consider,
research, and test alternative solutions for the wide area network. They have weighed the
theoretical benefits and limitations of each solution and will continue to test selected options
during their proof of concept test this summer. Because IPv6 will be deployed enterprise-wide,
the IPv6 project team has planned for several phases of testing, and not just for the traffic
between hubs. The entire protocol must be tested, and certain features of IPv6 will be disabled
due to the characteristics of the IRS network and the increased security the agency requires for
its data. The IPv6 project team stood up two test laboratories to pass traffic back and forth, and

                                                                                             Page 4
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



began a production proof-of-concept test during our fieldwork. The project team drafted
extensive test plans that are updated on an ongoing basis.
Since the entire network will be configured to support IPv6 in 2014, and all hardware and
software must be reconfigured and readdressed, this conversion will have a far-reaching impact
on many functions in the Information Technology organization including: User and Network
Services, Enterprise Operations, Applications Development, Cybersecurity, the Computer
Security Incident Response Center, and many others. The IRS IPv6 project team developed a
training plan for IPv6 and is currently in the process of updating it. To date, the project team has
hosted three large technical summit sessions and at least eight smaller, team-specific training
sessions that were sometimes technical and at other times more general or higher level. We
reviewed the training slides for some of the courses the project team developed and administered
and found them to be informative and appropriate for the audience.

Key Action Items From the 2014 Internet Protocol Version 6 Transition
Plan Need to Be Completed and Outreach Efforts Need to Be
Improved
The transition to IPv6 will be complex, given the geographic dispersion of the IRS network and
its size and diversity of software and hardware components. The IRS has developed the
2014 IPv6 Transition Plan, which is a comprehensive document that includes identified
stakeholders and roles and responsibilities, as well as a functional subgroup structure identified
by the three major affected areas of the protocol conversion—network, security, and
applications. The plan contains sections on program scope, objectives, and strategy, as well as a
large section regarding deliverables for each subgroup. While communication and outreach
efforts have achieved partial success, the IPv6 project team has yet to complete some key actions
listed in the 2014 IPv6 Transition Plan.

The IRS has not established an IPv6 Advisory Board or prepared an Information
Resources Management Strategic Plan
The 2014 IPv6 Transition Plan states that the IRS will establish an IPv6 Advisory Board whose
members will be key individuals both internal and external to the IRS who have unique and
specialized knowledge and experience regarding IPv6 within the Federal environment.
Internally, these persons would hold IRS corporate knowledge that enables them to advise on the
technical and cultural course of action required to meet the strategic objectives. External
participants would include members of the Federal IPv6 Task Force and other Federal agencies
who, through their experience, can provide lessons learned and risk mitigation strategies. The
IRS stated that it has not had a chance to stand up the Advisory Board yet, nor does it have a
charter. Without an Advisory Board to guide the project, the IPv6 project team lacks guidance
and expertise from external industry experts and may miss an opportunity to proactively obtain


                                                                                             Page 5
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



executive-level support from internal IRS stakeholders. Both of these groups could greatly
contribute to the success of the IPv6 transition.
In addition, the 2014 IPv6 Transition Plan identifies the need to ensure that the IPv6 transition
efforts are consistent with the future state of the agency’s enterprise architecture. Information
technology investments should be made with consideration of IPv6 capabilities, which should be
clearly articulated in the IRS Information Resources Management Strategic Plan. During the
course of our fieldwork, we found that an Information Resources Management Strategic Plan
does not exist at the IRS. The 2014 IPv6 Transition Plan also says that senior IRS executives in
charge of the Capital Planning and Investment Control processes must put in place the future
enterprise objectives so that the IRS may invest in targeted architecture upgrades to maintain a
current and secure enterprise. An Information Resources Management Strategic Plan would help
achieve this goal. At the time of our review, the IPv6 project team had not started work on
integrating IPv6 requirements into strategic planning.

Additional actions are necessary to ensure readiness with IPv6 procurement
requirements
Beginning in 2005, the OMB mandated that Federal agencies stop buying equipment and
software that was not capable of supporting IPv6. This policy was later clarified in the Federal
Register and made effective December 10, 2009, and is now part of the Federal Acquisition
Regulation. If the IRS purchases equipment or software that is not IPv6 capable, the products
will no longer work when the enterprise-wide IPv6 network conversion occurs at the end of
Fiscal Year 2014. This would not only be a waste of valuable resources, but could also
potentially cause network disruption and additional resource expenditures to either replace or
upgrade the equipment or software. To prevent this from happening, the IPv6 project team
developed suggested changes to IRS procurement policies, but procurement officials in
Agency-Wide Shared Services did not agree with this request.
During our fieldwork, we met with Agency-Wide Shared Services, and the procurement officials
stated that they disagreed with the IPv6 project team’s requests because they were not aware of
the deadline in 2014 for the IPv6 enterprise-wide network conversion, and that they did not want
to limit their purchasing options to those vendors that could provide IPv6 capability. When we
asked the procurement officials why they did not want to look ahead to the upcoming conversion
and only buy products that would work in the future state of the enterprise, they further stated
that private sector vendors are not mandated to make these technical changes like Federal
agencies are, and many vendors do not have the financial resources to make significant
engineering changes.
The IPv6 project team has reached out to other stakeholders in order to be proactive about the
transition. For example, the IPv6 project team is engaged with long-term information
technology projects they are aware of in order to be proactive about IPv6 capabilities and
requirements so that products purchased for these projects are IPv6 capable. The IPv6 project

                                                                                           Page 6
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



team also hosted ongoing biweekly meetings with stakeholders who have been identified and
documented in the IPv6 Program Charter. These discussions covered general scheduling topics
such as planned testing and training as well as project updates and deliverables. We also found
that the IPv6 project team sent out data calls to the IRS business units to obtain the most current
information about existing equipment and software that might need upgrading throughout the
agency. These data calls were only partially successful. While the IPv6 project team is not as
concerned about network equipment because approximately 95 percent has been identified,
efforts are still ongoing to obtain and analyze existing applications and software. The team is
trying to identify all of the business applications and software in use in order to determine
whether they are already IPv6 capable, are upgradeable to IPv6 with updates or reconfiguration,
or are in need of hard-coded reprogramming. For example, the IRS’s Applications Development
Office provided information on 173 applications and identified 47 that require updating and only
four that require an engineering effort prior to the 2014 enterprise-wide network conversion to
IPv6. This effort is still ongoing because some business units have not responded. This lack of
response limits the IPv6 project team’s ability to plan ahead for any needed engineering
solutions.
Without adherence to procurement policies and business unit input, Information Technology
organization management cannot ensure that future procurements will be in compliance with
IPv6 requirements.

Recommendations
Recommendation 1: The Chief Technology Officer should stand up the IPv6 Advisory
Board as soon as possible with both internal agency executives and industry experts as originally
described in the 2014 IPv6 Transition Plan.
       Management's Response: The IRS disagreed with this recommendation. On
       December 11, 2013, the IRS updated the 2014 IPv6 Transition Plan to reflect that the
       IRS Infrastructure Executive Steering Committee and the Federal IPv6 Task Force fulfill
       all desired advisory board functions.
       Office of Audit Comment: Updating the 2014 IPv6 Transition Plan to reflect that the
       IRS Infrastructure Executive Steering Committee and the Federal IPv6 Tax Force fulfill
       advisory board functions does not provide assurance that the IPv6 project will receive
       sufficient oversight based on the observations cited in the report.
Recommendation 2: The Chief Technology Officer should develop and distribute an
Information Resources Management Strategic Plan as originally described in the 2014 IPv6
Transition Plan and involve the Agency-Wide Shared Services’ Information Technology
Procurement function with the plan’s development. This planning effort should also establish a
process to communicate and incorporate future changes or enhancements to the Information
Resources Management Strategic Plan.

                                                                                            Page 7
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



       Management's Response: The IRS agreed with this recommendation. The IRS will
       revise the Information Technology Integrated Release Plan, referred to as the Information
       Resources Management Strategic Plan in the 2014 IPv6 Transition Plan, to incorporate
       IPv6. Information Technology Strategy and Planning and the Agency-Wide Shared
       Services Office of Procurement will annually conduct a review of the Information
       Technology Integrated Release Plan to update the document with future IPv6 changes.
Recommendation 3: The Chief Technology Officer should coordinate with Agency-Wide
Shared Services executives to ensure that procurement policy and procedures are updated to
align with the Federal Acquisition Regulation, and establish a control that prohibits purchase of
any equipment or software that is not IPv6 capable to ensure that the agency does not waste
valuable resources buying products that will not work on the converted network.
       Management's Response: The IRS agreed with this recommendation. The
       Agency-Wide Shared Services’ Office of Procurement will ensure that policy and
       procedures are updated to align with Federal Acquisition Regulations regarding IPv6
       requirements. In partnership, Agency-Wide Shared Services and the Information
       Technology organization will ensure that a control procedure exists to validate that
       information technology equipment and software acquisitions are IPv6 capable in
       accordance with Federal Acquisition Regulation IPv6 requirements.
Recommendation 4: The Chief Technology Officer should coordinate with the business units
to ensure that complete responses to the IPv6 applications data call are received so that the
extensive planning for each application that will require upgrading can begin.
       Management's Response: The IRS agreed with this recommendation. The IPv6
       Program Management Office received complete responses to the IPv6 applications data
       call from all business units in October 2013, and planning for application upgrades has
       been initiated.

The Internet Protocol Version 6 Project Did Not Receive Adequate
Executive Oversight and Did Not Adhere to the Enterprise Life Cycle
in 2012
Although the IPv6 project team successfully implemented the technical changes and
reconfigurations by the 2012 deadline for the external services, the project team did not adhere to
the IRS’s Enterprise Life Cycle (ELC) process and did not receive adequate oversight by the
Infrastructure Executive Steering Committee. The IRS’s ELC process is a disciplined approach
to manage and implement business changes through information systems initiatives and requires
all information technology projects to achieve several milestones that must be approved by
executive leadership in order to proceed. Solutions should not be deployed into production until



                                                                                            Page 8
                        Planning Is Underway for the Enterprise-Wide Transition to
                       Internet Protocol Version 6, but Further Actions Are Needed



Milestone 5 is exited.5 The IPv6 2012 reconfigurations for external services were put into
production in September 2012 despite the fact that the project has only officially exited
Milestones 1 and 2 of the ELC process. The Infrastructure Executive Steering Committee is
required to oversee this process according to project documentation.
We determined that this lack of ELC adherence occurred because the IPv6 project team was not
effectively coordinating with the IRS ELC Office to properly document project artifacts and
follow the ELC milestone process. In addition, the IPv6 project team stated that they had
planned to develop separate ELC artifacts, such as requirements reports, design documentation,
and test plans, for each of the 2012 and 2014 efforts. Because they had already deployed the
2012 solution without fully adhering to the ELC process, we suggested that the IPv6 project team
immediately request official approval from the Infrastructure Executive Steering Committee to
combine IPv6 information for both efforts into one comprehensive set of artifacts to streamline
their development and not duplicate efforts by creating similar documents for two different
projects. Further, because the 2012 external services IPv6 solutions were already in place and
functioning properly, it is acceptable to combine any extra information from this effort into
documents that are in process for the 2014 enterprise-wide effort because the project
documentation for 2014 is already late. The IPv6 project team and the project’s ELC coach
agreed with our assessment and formally requested this change through the Infrastructure
Executive Steering Committee. On June 11, 2013, the Committee conducted a virtual vote and
granted approval for combining both IPv6 efforts into one set of ELC artifacts and project
documentation.
We also interviewed the chairpersons of the Infrastructure Executive Steering Committee to
obtain information about why the IPv6 ELC project documentation did not reflect completed
project milestones and why the project was allowed to stray from the IRS’s ELC policy and
process. The chairpersons stated that they were not aware that they were supposed to be
monitoring the project from the perspective of the ELC policy. We informed them that the
Committee’s charter document stated that they are primarily supposed to oversee information
technology projects with respect to cost, schedule, and the ELC process. They stated that they
were not aware of the Infrastructure Executive Steering Committee Charter, which was written in
2008, and that it was probably out of date and not reflective of the Committee’s current
responsibilities. With the increasing complexity of the current enterprise-wide transition beyond
the 2012 mandate which is already in place, delayed completion of the required ELC artifacts
may seriously jeopardize the success of the 2014 effort. The IPv6 project team needs to focus on
documenting critical artifacts, including design and testing plans, in order to properly exit ELC
milestones with appropriate approval of IRS executives.




5
    See Appendix V for an overview of the ELC.
                                                                                          Page 9
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



Recommendations
Recommendation 5: The Chief Technology Officer should ensure that the IPv6 project team
coordinates with the ELC Office and takes a more proactive role of adhering to the ELC process
and meeting project milestone deadlines to ensure the timely completion of key ELC
deliverables, artifacts, and processes for the critical 2014 enterprise-wide transition to IPv6.
       Management's Response: The IRS agreed with this recommendation. Due to
       budget and schedule constraints, a risk-based decision was made to complete ELC
       Milestones 1 and 2 artifacts for the Fiscal Year 2012 mandate. The ELC Project Office
       approved an IPv6 ELC Tailoring Plan in July 2013 that combined the Fiscal Year 2012
       and Fiscal Year 2014 mandates. The IPv6 Program Management Office will complete
       future ELC deliverables in accordance with the approved ELC Tailoring Plan.
Recommendation 6: The Chief Technology Officer should assess the merits of transferring
IPV6 project oversight to another entity such as the Systems Security and Privacy Executive
Steering Committee or a management-level governance board that regularly monitors and
provides oversight of information technology projects. Their responsibilities should include
oversight of the critical elements of the IPv6 project’s cost, schedule, and adherence to the ELC
processes to include the adequate and timely completion of requirements, design, and testing of
artifacts.
       Management's Response: The IRS disagreed with this recommendation. IPv6 has
       enterprise impact beyond security and requires oversight from a governance board that
       takes a holistic view of the entire IRS Information Techology infrastructure portfolio, to
       include hardware, software, and applications. The Infrastructure Executive Steering
       Committee provides the necessary level of oversight for the IRS IPv6 implementation.
       Office of Audit Comment: IRS management indicated that the Infrastructure
       Executive Steering Committee provides the necessary level of oversight for the IPv6
       project. However, IRS management did not provide any documentation or formalized
       procedures demonstrating how the Infrastructure Executive Steering Committee regularly
       monitors and provides oversight of information technology projects. As a result, we
       cannot comment on whether the Infrastructure Executive Steering Committee will
       provide the necessary level of oversight for future successes on the IRS IPv6
       implementation.
Recommendation 7: The Chief Technology Officer should ensure that the Infrastructure
Executive Steering Committee updates its charter to properly reflect the current roles and
responsibilities of the committee.
       Management's Response: The IRS agreed with this recommendation. The IRS will
       update the Infrastructure Executive Steering Committee charter to reflect the current roles
       and responsibilities of the committee.

                                                                                          Page 10
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the IRS’s progress toward converting its network to IPv6 to
comply with OMB requirements. To accomplish our objective, we:
I.     Evaluated whether the IRS converted all external and customer-facing servers and
       services to IPv6 per the 2012 deadline set forth by the Federal Chief Information Officer.
       A. Determined whether IRS external and customer-facing websites are accessible to
          IPv6-enabled end systems on the public Internet. We confirmed functionality of
          these services through NIST’s online IPv6 monitoring tool that showed IRS websites
          to be IPv6 capable.
       B. Determined whether there are any external services that are not IPv6 capable. We
          interviewed agency officials responsible for the Registered User Portal refresh
          scheduled for fall 2013. We also obtained and reviewed schedule, design, and testing
          documentation from the Registered User Portal project team to ensure IPv6 capability
          is included.
II.    Determined whether the IRS is adequately preparing for the enterprise-wide transition to
       IPv6 that must be completed by the end of Fiscal Year 2014.
       A. Determined whether the IRS plans adequately address IPv6 transition concerns by
          reviewing NIST guidance and comparing this guidance to the IRS IPv6 project
          planning documentation. We specifically determined whether the IRS documented
          security risks for the conversion to IPv6.
       B. Evaluated the impact of Internet service provider limitations on the ability of the IRS
          to transition to IPv6 enterprise-wide.
       C. Determined whether the IPv6 project team properly and timely completed key ELC
          deliverables, artifacts, and processes. We reviewed the project’s ELC Tailoring Plan
          to determine the critical deliverables and artifacts that should have been completed
          for each development phase, and obtained and reviewed these documents for
          completion, timeliness, and sufficiency.
       D. Determined whether IRS project documentation includes adequate planning for IPv6
          testing by interviewing testing officials and reviewing test plans and accomplishments
          to date.
       E. Determined whether stakeholders are identified and whether outreach and training are
          adequately conducted. We reviewed project documentation, including its charter and
                                                                                          Page 11
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed



           the IPv6 project team’s communication and training plans. We also determined the
           training conducted to date and reviewed training materials developed by the IPv6
           project team.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the OMB, the NIST, the Federal
Acquisition Regulation, and related IRS guidelines for information technology projects and the
IRS’s efforts to implement these controls in order to protect the IRS network and data during its
network conversion to IPv6. We evaluated these controls by conducting interviews and meetings
with IPv6 project management and stakeholders at the IRS functions responsible for
reconfiguring, testing, and securing IPv6 throughout the agency. We also reviewed project
documentation and outreach and training efforts to date.




                                                                                         Page 12
                  Planning Is Underway for the Enterprise-Wide Transition to
                 Internet Protocol Version 6, but Further Actions Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Joseph F. Cooney, Audit Manager
Myron Gulley, Acting Audit Manager
Jena Whitley, Lead Auditor
George Franklin, Senior Auditor
Cindy Harris, Senior Auditor
Nicholas Reyes, Information Technology Specialist




                                                                                     Page 13
                 Planning Is Underway for the Enterprise-Wide Transition to
                Internet Protocol Version 6, but Further Actions Are Needed



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Chief, Agency-Wide Shared Services OS:A
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 14
                    Planning Is Underway for the Enterprise-Wide Transition to
                   Internet Protocol Version 6, but Further Actions Are Needed



                                                                   Appendix IV

  Major Differences Between IPv4 and IPv6 Headers




Source: Government Accountability Office.




                                                                          Page 15
                       Planning Is Underway for the Enterprise-Wide Transition to
                      Internet Protocol Version 6, but Further Actions Are Needed



                                                                                             Appendix V

                         Enterprise Life Cycle Overview

The ELC is the IRS’s approach to manage and implement business change through
information systems initiatives. The ELC provides the direction, processes, tools, and assets
necessary to accomplish business change in a consistent and repeatable manner.
Figure 1 provides an overview of the phases and milestones within the ELC. A phase is a
broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) where IRS executives make
“go/no-go” decisions for continuation of a project as well as considering funding requests.
                                Figure 1: ELC Phases and Milestones

                 Phase                           General Nature of Work                       Milestone
     Vision and Strategy/Enterprise   High-level direction setting.                               0
     Architecture Phase
     Project Initiation Phase         Startup of development projects.                            1

     Domain Architecture Phase        Specification of the operating concept,                     2
                                      requirements, and structure of the solution.

     Preliminary Design Phase         Preliminary design of all solution components.              3

     Detailed Design Phase            Detailed design of solution components.                    4A

     Systems Development Phase        Coding, integration, testing, and certification of         4B
                                      solutions.
     Systems Deployment Phase         Expanding availability of the solution to all target        5
                                      users. This is usually the last phase for
                                      development projects.
     Operations and Maintenance       Ongoing management of operational systems.               System
     Phase                                                                                    Retirement
    Source: The ELC Internal Revenue Manual.
 



                                                                                                   Page 16
                  Planning Is Underway for the Enterprise-Wide Transition to
                 Internet Protocol Version 6, but Further Actions Are Needed



                                                                              Appendix VI

                              Glossary of Terms

Term                           Definition

Agency-Wide Shared Services    An IRS organization that supports the IRS by managing
                               resources that enable the IRS’s business processes.
Application                    An information technology component of a system that
                               utilizes information technology resources to store, process,
                               retrieve, or transmit data or information using information
                               technology hardware and software.
Applications Development       A function within the IRS Information Technology
                               organization responsible for building, testing, delivering, and
                               maintaining integrated information applications systems or
                               software solutions, to support modernized systems and the
                               production environment.
Artifact                       The tangible result (output) of an activity or task performed by
                               a project during the ELC.
Calendar Year                  The 12-consecutive-month period ending on December 31.
Cybersecurity                  A function within the IRS Information Technology
                               organization responsible for ensuring compliance with Federal
                               statutory, legislative, and regulatory requirements governing
                               confidentiality, integrity, and availability of IRS electronic
                               systems, services, and data.
Enterprise Life Cycle          The approach used by the IRS to manage and implement
                               business change through information systems initiatives. The
                               ELC provides the direction, processes, tools, and assets
                               necessary to accomplish business change in a consistent and
                               repeatable manner.
Federal Acquisition            The primary acquisition regulation for use by all Federal
Regulation                     executive agencies in their acquisition of supplies and services
                               with appropriated funds.



                                                                                        Page 17
                   Planning Is Underway for the Enterprise-Wide Transition to
                  Internet Protocol Version 6, but Further Actions Are Needed




Term                          Definition

Federal Chief Information     The Federal Chief Information Officer heads the OMB Office
Officer                       of E-Government and Information Technology which
                              develops and provides direction in the use of Internet-based
                              technologies.
Fiscal Year                   A 12-consecutive-month period ending on the last day of any
                              month. The Federal Government’s fiscal year begins on
                              October 1 and ends on September 30.
Hard-Coded                    A software development practice of embedding data directly
                              into the source code of a program instead of obtaining that
                              data from external sources or generating data in the program
                              itself with the given input. The degree to which a program is
                              hard-coded determines how difficult it is to change when each
                              new type of data is introduced.
Information Technology        Any equipment or interconnected system or subsystem of
                              equipment that is used in the automatic acquisition, storage,
                              manipulation, management, movement, control, display,
                              switching, interchange, transmission, or reception of data or
                              information by an executive agency. The term information
                              technology includes computers, ancillary equipment, software,
                              firmware and similar procedures, services (including support
                              services), and related resources.
Infrastructure Executive      Governs projects within the Infrastructure portfolio to ensure
Steering Committee            that project objectives are met, risks are managed
                              appropriately, and the expenditure of enterprise resources is
                              fiscally sound.
Internet Protocol Version 4   The current version of the IP which specifies a 32-bit IP
                              address field which will run out of available address space in
                              the near future.
Internet Protocol Version 6   The next generation IP which allows a 128-bit IP address field
                              in the form of eight 16-bit integers represented as four
                              hexadecimal digits separated by colons.
Multihomed Site               A site, which is an entity autonomously operating a network
                              using IP, with more than one transit provider of connectivity
                              to the Internet.


                                                                                      Page 18
                    Planning Is Underway for the Enterprise-Wide Transition to
                   Internet Protocol Version 6, but Further Actions Are Needed




Term                              Definition

National Institute of Standards   The NIST, under the Department of Commerce, is responsible
and Technology                    for developing standards and guidelines for providing
                                  adequate information security for all Federal Government
                                  agency operations and assets.
Office of Management and          The OMB’s predominant mission is to assist the President in
Budget                            overseeing the preparation of the Federal budget and to
                                  supervise administration in Executive Branch agencies. The
                                  OMB evaluates the effectiveness of agency programs,
                                  policies, and procedures. The OMB oversees and coordinates
                                  the Administration’s procurement, financial management,
                                  information, and regulatory policies.
Project                           A group of tasks to accomplish a specific objective, with a
                                  beginning and ending date, that is planned, monitored, and
                                  measured; follows a life cycle process; and results in
                                  deliverables or end products.
Proof of Concept                  A short and/or incomplete realization of a certain method or
                                  idea to demonstrate its feasibility, or a demonstration in
                                  principle.
Registered User Portal            The IRS external portal that allows registered individuals and
                                  third-party users (collectively, “partners” – registration and
                                  login authentication required) and other individual taxpayers
                                  or their representatives (self-authentication with shared secrets
                                  required) access for interaction with selected tax processing
                                  and other sensitive systems, applications, and data.
User Networks and Services        A function within the IRS Information Technology
                                  organization that supplies and maintains all desk-side
                                  (including telephone) technology, provides workstation
                                  software standardization and security management,
                                  inventories data-processing equipment, conducts annual
                                  certification of assets, provides the Information Technology
                                  Service Desk as the single point of contact for reporting an
                                  information technology issue, and equips the Volunteer
                                  Income Tax Assistance program.
Wide Area Network                 A communications network that covers a wide geographic
                                  area, such as a State or country.

                                                                                           Page 19
      Planning Is Underway for the Enterprise-Wide Transition to
     Internet Protocol Version 6, but Further Actions Are Needed



                                                     Appendix VII

Management’s Response to the Draft Report




                                                            Page 20
 Planning Is Underway for the Enterprise-Wide Transition to
Internet Protocol Version 6, but Further Actions Are Needed




                                                       Page 21
 Planning Is Underway for the Enterprise-Wide Transition to
Internet Protocol Version 6, but Further Actions Are Needed




                                                       Page 22
 Planning Is Underway for the Enterprise-Wide Transition to
Internet Protocol Version 6, but Further Actions Are Needed




                                                       Page 23
